Mppeai: ia- ioo*t

uoc; ^ i

rneu; i i/^ i/^u i»

ry: i ui ^

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1584

GREGORY SHAWN MERCER,
Plaintiff - Appellant,
v.
E. A. VEGA,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, District Judge. (l:18-cv-00346-LO-TCB)

Submitted: November 19, 2019

Decided: November 21, 2019

Before WILKINSON and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.

Affirmed by unpublished per curiam opinion.

Gregory Shawn Mercer, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

uooAvt Mppeai: i»- i ooh

uoo: ^ i

meu: i i/^ i//:u i»

rg: ^ ui ^

PER CURIAM:
Gregory Shawn Mercer appeals the district court’s orders denying relief on his 42
U.S.C. § 1983 (2012) complaint and denying reconsideration. We have reviewed the
record and find no reversible error. Accordingly, we deny Mercer’s motion for clarification
and affirm for the reasons stated by the district court. Mercer v. Vega, No. l:18-cv-00346LO-TCB (E.D. Va. filed Apr. 24 & entered Apr. 25, 2019; May 24, 2019). We dispense
with oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
AFFIRMED

2

uooa-w

Mppeai. i»- i ooh

uou: /lo

rueu: im/uo/^u^u

ry: i 01 i

FILED: February 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1584
(1:18-cv-00346-LO-TCB)

GREGORY SHAWN MERCER
Plaintiff - Appellant
v.
E. A. VEGA
Defendant - Appellee

ORDER
The court denies the petitions for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Richardson,
and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor. Clerk

Case l:18-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 1 of 9 PagelD# 231

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
GREGORY S MERCER,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
E.A. VEGA,
Defendant.

Case No. l:I8-cv-346

MEMORANDUM OPINION
This matter comes before the Court on Defendant’s Motion for Summary Judgment. Dkt.
19. For the following reasons the Motion is granted.
I. Background
The present case was set in motion by a 2006 arrest. On June 9,2006, Trooper Kenneth
Houtz approached four cars that were pulled over on the shoulder of Interstate 66. The driver of
one of these cars was Plaintiff, Gregory Mercer. As Houtz was issuing a summons to Mercer for
improperly stopping on the highway, Mercer struck Houtz and called Houtz an asshole. Seeking to
deescalate the situation, Houtz went to issue summonses to the three other drivers to give Mercer a
chance to calm down. When Houtz returned to Mercer, Mercer was still upset and asked for
Houtz’s name and badge number.
Houtz then called his Division Headquarters and spoke to Sergeant Kerry Allander about
the situation with Mercer. After speaking to Allander, Houtz arrested Mercer and subsequently
obtained and served a warrant on Mercer for assault and battery of a law enforcement officer.
After his arrest, Mercer went to the Division VII, Area 9 Office to speak with Allander.
1

Case l:l8-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 2 of 9 PageiD# 232

Mercer told Allander Houtz’s story about what happened on the side of Interstate 66 was not true
and that Mercer had been unjustly arrested. Allander informed Mercer he was not Houtz’s
supervisor and gave him the information for Houtz’s supervisor.
On November 30,2006, Mercer was convicted of misdemeanor assault and battery in
Fairfax County General District Court. Mercer appealed to the Fairfax County Circuit Court, was
convicted there as well and sentenced on June 1,2007.
After his conviction, Mercer did not seek to put this incident behind him, but instead
remained fixated on his allegedly unjust arrest. Soon after the conviction Mercer and Houtz spoke
on the phone. Mercer accused Houtz of committing petjury, Houtz denied this accusation, and
Mercer hung up the phone. Mercer then appealed his conviction to the Virginia Court of Appeals,
the Supreme Court of Virginia, and the United States Supreme Court. All appeals were denied.
Approximately a year and a half later, on January 4,2011, Mercer filed complaints against all the
judges involved in his case - the Circuit Court judge, the Court of Appeals judges, and the
Supreme Court of Virginia justices - with the Judicial Inquiry and Review Commission of the
Commonwealth of Virginia. The Commission informed Mercer it did not have the authority to
address the complaints.
On March 3, 2015, over four years after he filed his judicial complaints, and nearly nine
years after the 2006 arrest occurred, Mercer called the Division VII, Area 9 Office and asked to
speak to Allander. When Mercer was unable to speak to Allander he asked for information on
Allander and Houtz. After this phone call Mercer went to the Division VII, Area 9 Office in
person, falsely identified himself as a George Mason University student, and spoke to Allander,
asking him for further information about Houtz.
Three days later, on March 6,2015, Mercer filed a lawsuit in this Court against Fairfax
County Child Protective Services and two of its employees, the Fairfax County Department of
2

Case l:l8-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 3 of 9 PagelD# 233

Code Compliance and three of its employees, Allander, Houtz, and all the judges and justices
mentioned above.
After filing his lawsuit, Mercer began making efforts to serve Allander and Houtz. On
March 11,2015, Mercer called Division VII, stating he needed to serve subpoenas on Allander
and Houtz. The person Mercer spoke to informed Mercer that he could serve Allander and Houtz
at their work addresses. Two days after this phone call, Mercer emailed Allander and Houtz asking
for their home addresses so he could serve them. Allander and Houtz forwarded the emails to their
supervisors per department policy and the supervisors forwarded the emails to the Office of Legal
Affairs.
Between March 16 and 20,2015, the Office of Legal Affairs contacted Mercer, informed
him that Virginia State Police does not give out officers’ home addresses, and that the Office of
Legal Affairs could serve Allander and Houtz. The Office of Legal Affairs also instructed Mercer
not to contact the officers directly as they were being represented by the Office of the Attorney
General. After this conversation Mercer again emailed Allander and Houtz asking for their home
addresses so he could serve them.
Two months later, on May 14,2015, Mercer came to the Division VII Area 10 Office and
asked for Houtz and Houtz’s home address. The sergeant Mercer talked to told him Houtz was not
in the office and that they did not give out officers’ home addresses. Mercer left, but as he left the
sergeant noticed Mercer and a companion writing down the license plate numbers of the cars in
the parking lot.
On May 15,2015 at approximately 12:30 a.m. Mercer called Division VII State Police
Communications, falsely identified himself as Ibrahim Fetterolf, and indicated he was meeting
Allander at the Division VII Office that night. When the office contacted Allander to confirm this
meeting Allander said he was not scheduled to meet with anyone that night.
3

Case l:18-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 4 of 9 PagelD# 234

That same night, at approximately 12:45 a.m., Trooper Wesley Paul noticed two men in a
white Toyota Camry with its lights off in the employee parking lot of the Division VII, Area 9
Office. The two men were Mercer and Ibrahim Fetterolf. Paul approached the car and Mercer and
Fetterolf told him they were looking for Allander. Mercer again falsely identified himself as
Ibrahim Fetterolf. Paul told the men Allander was not there and asked them to leave as the hours
of operation for the premises were 8:30 a.m. to 4:00 p.m. Mercer and Fetterolf complied with
Paul’s request and left. After this incident, on May 20,2015, Defendant, Special Agent Vega,
began to investigate the situation involving Mercer, Houtz, and Allander.
On May 29,2015, summons were issued by the Court in Mercer’s federal complaint
against Houtz and Allander. The summons contained Houtz’s and Allander’s home addresses.
Two days later, on May 31,2015, Allander was home with his wife and children when Mercer and
a male companion began ringing his doorbell and banging on his door. Allander looked outside,
recognized Mercer, and opened the door to tell the men they were trespassing and to leave his
property. Allander followed Mercer into the yard and to the edge of his property and then ensured
Mercer's companion had also left. When Allander got back to his house his wife was upset and
screaming that one of the men had thrown a brown package into the house through the front door.
Not knowing what was in the package, Allander kicked it out of the house and into the yard.
The next day, on June 1,2015, Allander was granted an Emergency Protective Order
against Mercer. Two days later, on June 3.2015, both he and Houtz sought Preliminary Protective
Orders against Mercer.
The above facts were all revealed during Vega’s investigation. As a result of his
investigation, Vega swore out warrants against Mercer on June 1,2015. The same day, Vega
appeared before Fairfax County Magistrate Wilson Talavera where he under oath presented the
results of his investigation and answered all of Magistrate Talavera’s questions. Magistrate
4

Case 1:18-CV-00346-LO-TCB Document 29 Filed 04/24/19 Page 5 of 9 PagelD# 235

Talavera determined the evidence supported four charges against Mercer and issued four Warrants
of Arrest: one for stalking, two for identity theft, and one for using a computer to gather
identifying information.
Mercer was arrested on June 6,2015. After Mercer’s arrest, and based on further
investigation, Vega swore out more warrants against Mercer on June 26,2015. Mercer’s case went
to trial in die Fairfax County General District Court on March 31,2016. The prosecutor brought
forward the charges for stalking and identity theft, as well as the June 26,2015 charges. The
Fairfax County Circuit Court ultimately dismissed the charges against Mercer.
Nearly three years later, on March 28,2018, Mercer filed a Complaint with this Court
alleging Vega violated his Fourth Amendment rights. The Court dismissed the Complaint for
failure to state a claim, but gave Mercer leave to amend. Mercer filed an Amended Complaint with
this Court on April 16,2018 again alleging a violation of his Fourth Amendment rights to be free
from an unreasonable seizure. Vega has now moved for summary judgment on Mercer’s claims in
the Amended Complaint.
11. Legal Standard
Summary judgment is appropriate if the “pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, show that there is no
genuine issue as to any material fact and that the moving party is entitled to a judgment as a matter
of law.” Celoiex Corp. v. Catrett, 477 U.S. 317, 322 (1986). A party moving for summary
judgment has the initial burden of establishing the basis for its motion and identifying the evidence
which demonstrates the absence of a genuine issue of material fact. Id. Once the moving party
satisfies its initial burden, the opposing party may show, by means of affidavits or other verified
evidence, that there exists a genuine dispute of material fact. See Mats ushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S, 574,586-87 (1986), In reviewing a summary judgment motion, the
5

Case l:18-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 6 of 9 PagelD# 236

court must “draw all justifiable inferences in favor of the nonmoving party.” United States v.
Carolina Transformer Co. ,978 F.2d 832,835 (4th Cir. 1992).
III. Analysis
Vega is not liable in this lawsuit on two independent grounds. First, Mercer’s arrest was
supported by probable cause so there was no Fourth Amendment violation. Second, the warrants
Vega relied on were swom out by a neutral, detached magistrate and there are no facts to support
that an officer of reasonable competence would not have relied on the warrants. Therefore, even if
there was a Fourth Amendment violation, the magistrate’s actions shield Vega from liability.
A. Mercer's Arrest was Supported by Probable Cause
The Fourth Amendment protects against unreasonable searches and seizures. Brooks v.
City of Winston-Salem, N.C.. 85 F.3d 178. 183 (4th Cir. 1996). Seizure of a person without
probable cause is unreasonable. Id. Therefore, to establish his Fourth Amendment claim, Mercer
must demonstrate that his arrest lacked probable cause.
Probable cause is based on the totality of the circumstances known to the arresting officer
at the time of the arrest. Brown v. Gilmore, 278 F.3d 362,367 (4th Cir. 2002). The evidence
available to the arresting officer need only be sufficient to cause a reasonable officer to believe
that an offense has been or is being committed. Id. The evidence need not be sufficient to secure a
conviction. Id. Therefore, “to prove an absence of probable cause, [Mercer] must allege a set of
facts which made it unjustifiable for a reasonable officer to conclude he was violating [the relevant
statutes].” Id. at 368.
Several courts, including the Fourth Circuit in an unpublished opinion, have held an arrest
based on multiple charges will be reasonable, and will not violate the Fourth Amendment, so long
as at least one of the individual’s charges was based in probable cause. See Smith v. McCluskey,
126 F. App’x 89,95 (4th Cir. 2005) (“As the Fifth Circuit recently noted, ‘[i]f there was probable
6

Case l:l8-cv-00346-LO-TCB Document 29 Filed 04/24/19 Page 7 of 9 PagelD# 237

cause for any of the charges made ... then the arrest was supported by probable cause and the
claim for false arrest fails.’”) (Gregory, J., concurring in the judgment). Sturdivant v. Dale, 2016
WL 11410292, at *4 n.5 (D.S.C. May 31,2016), report and recommendation adopted, 2016 WL
3514451 (D.S.C. June 28,2016) (“For fourth-amendment purposes, an arrest on multiple charges
is a ‘single transaction,’ and probable cause will be found to exist, so long as it existed for at least
one offense.”); McMillian v. LeConey, 2011 WL 2144628, at *8 (E.D.N.C. May 31,2011), tiff'd,
455 F. App’x 295 (4th Cir. 2011) (“As long as [the officer} had probable cause for some offense.
the arrest was proper.”); see also Wells v. Bonner, 45 F.3d 90,95 (5th Cir. 1995) (“The claim for
false arrest does not cast its primary focus on the validity of each individual charge; instead, we
focus on the validity of the arrest. If there was probable cause for any of the charges made—here
either disorderly conduct or resisting a search—then the arrest was supported by probable cause,
and the claim for false arrest fails.”).
in Virginia, a stalking offense is described as when
[a]ny person, except a law-enforcement officer,... and a registered private investigator,
... acting in the course of his legitimate business, who on more than one occasion engages
in conduct directed at another person with the intent to place, or when he knows or
reasonably should know that the conduct places that other person in reasonable fear of
death, criminal sexual assault, or bodily injury to that other person or to that other
person’s family or household member is guilty of a Class 1 misdemeanor. If the person
contacts or follows or attempts to contact or follow the person at whom the conduct is
directed after being given actual notice that the person does not want to be contacted or
followed, such actions shall be prima facie evidence that the person intended to place that
other person, or reasonably should have known that the other person was placed, in
reasonable fear of death, criminal sexual assault, or bodily injury to himself or a family
or household member.
Va. Code § 18.2-60.3(A).
The facts Vega uncovered in his investigation were undoubtedly sufficient evidence for a
reasonable officer to conclude a stalking offense was being committed. The evidence showed
Mercer had been violent with Houtz before and Al lander had knowledge of this violence. After
7

